      DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL
                                                                           T




                                                                               Office of Audit Services, Region III
                                                                               Public Ledger Building, Suite 316
                                                                               150 S. Independence Mall West
                                                                               Philadelphia, PA 19106-3499



October 8, 2009

Report Number: A-03-07-00031

Ms. Judy Thomas
Executive Director of renal Services
Bon Secours Baltimore Hospital
2000 W. Baltimore Street
Baltimore, Maryland 21223

Dear Ms. Thomas:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Payments for Epogen Administered at Bon Secours
Baltimore Hospital Renal Dialysis Center, Baltimore, Maryland.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov .
HTU               UHT




If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov , or contact Bernard Siegel,
                                    HTU                              UTH




Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov . Please
                                                       HTU                                   UTH




refer to report number A-03-07-00031 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Judy Thomas


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12 th Street, Room 235
          P   P




Kansas City, Missouri 64106
rokcmora@cms.hhs.gov
HTU                   UT
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      PAYMENTS FOR
  EPOGEN ADMINISTERED AT
       BON SECOURS
    BALTIMORE HOSPITAL
  RENAL DIALYSIS CENTER,
   BALTIMORE, MARYLAND



                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-03-07-00031
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia, and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Bon Secours Baltimore Hospital Renal Dialysis Center (Bon Secours), located in Baltimore,
Maryland, is a hospital-based renal dialysis facility operated by Bon Secours Baltimore Hospital.
Bon Secours provides treatment for end-stage renal disease using 37 renal dialysis stations. It
received payments totaling $15,847,589 for Medicare service provided from January 1, 2004,
through June 30, 2006. Of this amount, $2,520,544 was for the administration of Epogen.
During our audit period, Bon Secours used dosing algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Bon Secours administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Bon Secours’ medical records.

SUMMARY OF FINDING

For 95 of the 100 sampled claims, Bon Secours administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in Bon
Secours’ medical records. However, Bon Secours did not meet the Medicare payment
requirements for some dates of service for five claims. In those instances, we identified
discrepancies in Bon Secours’ medical and billing records between the units of Epogen ordered
by the patients’ attending physicians and the units administered to the patients, billed by Bon
Secours, and paid by Medicare. In addition, for 76 of the 100 claims (10 of the claims had two



                                                i
errors) Bon Secours medical and billing records reflected errors that we considered procedural
because they did not result in overpayments.

      For five claims with errors totaling $89, Bon Secours billed and Medicare paid for more
       units of Epogen than were ordered by the attending physicians.

      For 13 of the 76 claims, Bon Secours’ medical records reflected errors in documenting
       the ordering and administration of Epogen but not discrepancies in the quantities of
       Epogen ordered, administered, billed, or paid. For purposes of this report, we considered
       these errors procedural because they did not result in overpayments.

      For 73 of the 76 claims, Bon Secours’ billing records reflected errors in the hematocrit
       level reported with the claims. For purposes of this report, we considered these errors
       procedural because they did not result in overpayments.

Although Bon Secours had controls in place, based on our review, Bon Secours personnel did
not always follow all of those procedures. The errors related to the five claims that resulted in
overpayments occurred because an attending physician’s order decreasing the dose of Epogen
was not followed resulting in a patient receiving a larger Epogen dose than ordered for several
treatments and Bon Secours did not correctly bill for units of Epogen administered. As a result,
Bon Secours received $89 in overpayments and patients did not always receive the amounts of
Epogen ordered by attending physicians. When attending physicians’ orders are not followed,
quality of care may be affected.

RECOMMENDATIONS

We recommend that Bon Secours:

      refund the $89 in overpayments and

      ensure that it follows policies and procedures that are consistent with Federal
       requirements in order to avoid discrepancies between the units of Epogen ordered by
       patients’ physicians and the units administered to the patient, billed by Bon Secours, and
       paid by Medicare.

BON SECOURS COMMENTS

In written comments (Appendix) on our draft report, Bon Secours concurred with our
recommendations. Bon Secours stated that it will contact the fiscal intermediary about refunding
the $89 in overpayments and that its monthly chart audits will ensure compliance with its
policies and procedures.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page
                                                                                                                                     U




INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare ...............................................................................................................1
              Epogen Therapy for End-Stage Renal Disease Patients .......................................1
              Medicare Requirements and Payment for End-Stage Renal Disease Services.....2
              Bon Secours Baltimore Hospital Renal Dialysis Center.......................................2
              Bon Secours Center Medical Information System and Procedures for
               Administering Epogen .......................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope.....................................................................................................................3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          FEDERAL REQUIREMENTS.........................................................................................5
               Medical Recordkeeping ........................................................................................5
               Medicare Payment Procedures..............................................................................5

          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS .........5
               More Units of Epogen Administered, Billed, and Paid Than Ordered.................5
               More Units of Epogen Billed and Paid Than Ordered and Administered ............6

          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
           DISCREPANCIES.........................................................................................................6
               Unsigned Medical Record Documents .................................................................7
               Missing Treatment Sheets.....................................................................................7
               Claims with Incorrect Hematocrit Levels .............................................................7

          BON SECOURS PROCEDURES NOT FOLLOWED....................................................7

          RECOMMENDATIONS..................................................................................................8

          BON SECOURS COMMENTS .......................................................................................8

APPENDIX

          BON SECOURS COMMENTS




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1     FP   PF




Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
                                                                           FP   PF




levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3                 FP   PF




Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by the facility Medical Director and ordered by the physician. It requires the
nurse on duty to gather information from the patient’s medical record and determine the correct
dose of Epogen to maintain an optimal hematocrit level. Based on the algorithm, a nurse may
decrease, increase, or maintain the Epogen dose or temporarily suspend the dose for one or more
treatments. Bon Secours Baltimore Hospital Renal Dialysis Center (Bon Secours) used dosing
algorithms to adjust patient Epogen doses.




1
PEpogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
    P




blood cells.
2
P   P   CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 8, section 60.4.
3
PAfter our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
    P




“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf .
                                                  HTU                                                     UTH




Accessed on April 24, 2009.


                                                            1
Medicare Requirements and Payment for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
                                                                                        FP   PF




Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Bon Secours Baltimore Hospital Renal Dialysis Center

Bon Secours, located in Baltimore, Maryland, is a hospital-based renal dialysis facility operated
by Bon Secours Baltimore Hospital. Bon Secours provides treatment for end-stage renal disease
using 37 renal dialysis stations. It received payments totaling $15,847,589 for Medicare services
provided from January 1, 2004, through June 30, 2006. Of this amount, $2,520,544 was for the
administration of Epogen.

Bon Secours Medical Information System and Procedures for Administering Epogen

Bon Secours uses an electronic medical information recordkeeping system (Bon Secours
System) that documents all procedures and medications ordered and administered to patients.
Bon Secours’ written guidance for administering Epogen is limited. The guidance states that the
patient’s hemoglobin level will be reviewed weekly and the anemia management team
determines the Epogen dose using the physician-approved dosing algorithm. A nurse enters
changes in the Epogen dose into the Bon Secours System and the new Epogen dose is reflected
on the next dialysis treatment sheet. The physician signs the Epogen dose order change during
the next visit to the facility. Before entering Epogen dose changes in the Bon Secours System
that are not in accordance with the physician-approved dosing algorithm, the ordering physician
must approve the change. The nurse who administers the Epogen dose must document the time
administered and how well the patient tolerated the Epogen on the treatment sheet.

4
PDuring the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
    P




The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                        2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Bon Secours administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Bon Secours’ medical records.

Scope

Our review covered 4,260 monthly claims totaling $2,520,544 for Epogen administered by Bon
Secours from January 1, 2004, through June 30, 2006.

We limited our review of Bon Secours’ internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Bon Secours’ complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Bon Secours in Baltimore, Maryland.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance related to the treatment of
        end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

       reviewed applicable State laws, regulations, and guidance related to Bon Secours’
        policies and procedures for Epogen administration;

       reviewed Bon Secours’ policies and procedures, including its medical recordkeeping and
        billing practices;

       interviewed Bon Secours’ officials;

       identified and assessed the adequacy of internal controls related to the administration of
        and billing for Epogen; and

       identified a sampling frame of all claims in the CMS claims history file with Epogen
        administered at Bon Secours from January 1, 2004, through June 30, 2006, and:

        o selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $46,368 and

        o for each sampled claim, compared the units of Epogen ordered by the Bon Secours
          attending physician, administered to patients, billed by Bon Secours, and paid by


                                                 3
           Medicare to determine whether such units, as reflected in Bon Secours’ medical and
           billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 95 of the 100 sampled claims, Bon Secours administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in Bon
Secours’ medical records. However, Bon Secours did not meet the Medicare payment
requirements for some dates of service for five claims. In those instances, we identified
discrepancies in Bon Secours’ medical and billing records between the units of Epogen ordered
by the patients’ attending physicians and the units administered to the patients, billed by Bon
Secours, and paid by Medicare. In addition, for 76 of the 100 claims (10 of the claims had two
errors) Bon Secours medical and billing records reflected errors that we considered procedural
because they did not result in overpayments.

      For five claims with errors totaling $89, Bon Secours billed and Medicare paid for more
       units of Epogen than were ordered by the attending physicians.

      For 13 of the 76 claims, Bon Secours’ medical records reflected errors in documenting
       the ordering and administration of Epogen but not discrepancies in the quantities of
       Epogen ordered, administered, billed, or paid. For purposes of this report, we considered
       these errors procedural because they did not result in overpayments.

      For 73 of the 76 claims, Bon Secours’ billing records reflected errors in the hematocrit
       level reported with the claims. For purposes of this report, we considered these errors
       procedural because they did not result in overpayments.

Although Bon Secours had controls in place, based on our review, Bon Secours personnel did
not always follow all of those procedures. The errors related to the five claims that resulted in
overpayments occurred because an attending physician’s order decreasing the dose of Epogen
was not followed resulting in a patient receiving a larger Epogen dose than ordered for several
treatments and Bon Secours did not correctly bill for units of Epogen administered. As a result,
Bon Secours received $89 in overpayments and patients did not always receive the amounts of
Epogen ordered by attending physicians. When attending physicians’ orders are not followed,
quality of care may be affected.




                                                4
FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
                                                                  FP   PF




to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit reading for claims that
include administered Epogen. Prior to January 1, 2006, the hematocrit reading reported should
be the reading taken prior to the last dose of Epogen administered during the billing period.
Beginning January 1, 2006, the hematocrit reading reported should be the patient’s most recent
reading taken before the start of the billing period.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Bon Secours’ medical and billing records with respect to
the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the
nurse to the patient, (3) billed by Bon Secours, and (4) paid by Medicare. For five claims with
questioned amounts totaling $89, Bon Secours billed and Medicare paid for more units of
Epogen than were ordered by the attending physicians.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For one claim, Bon Secours’ medical records reflected an attending physician’s order, dated
November 19, 2004, to decrease the units of Epogen from 5,000 to 3,000 units. However, the
administering nurse continued to administer 5,000 units of Epogen for four treatments following

5
PThis condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
    P




at 42 CFR § 494.170.


                                                      5
the change ordered by the attending physician. Bon Secours administered and billed, and
Medicare paid for 8,000 more units of Epogen, totaling $64, than was ordered.

More Units of Epogen Billed and Paid Than Ordered and Administered

For four claims covering four patients, Bon Secours was paid for more units of Epogen than
were administered during the month reviewed. In total, Bon Secours billed and Medicare paid
for 3,350 more units of Epogen, totaling $25, than was ordered and administered.

           For one claim, the attending physician ordered and Bon Secours administered 3,000 units
            of Epogen during the 13 dialysis treatments during June 2006. In total, Bon Secours
            administered 39,000 units of Epogen during the month; however, Bon Secours billed for
            42,000 units of Epogen. As a result, Bon Secours billed and Medicare paid for 3,000
            more units of Epogen, totaling $22, than was ordered and administered.

           For three claims, the Bon Secours’ medical records showed that three patients received
            doses of Epogen and Aranesp 6 during the months reviewed. For the three claims, Bon
                                         FP   PF




            Secours billed the units of Aranesp administered as units of Epogen. As a result, Bon
            Secours billed and Medicare paid for 350 more units of Epogen, totaling $3, than was
            ordered and administered.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

Bon Secours’ Epogen administration guidance states that the patient’s hemoglobin level will be
reviewed weekly and the anemia management team determines the Epogen dose using the
physician-approved dosing algorithm. A nurse enters changes in the Epogen dose into the Bon
Secours System and the new Epogen dose is reflected on the next dialysis treatment sheet. The
physician signs the Epogen dose order change during the next visit to the facility. Before
entering Epogen dose changes in the Bon Secours System that are not in accordance with the
physician-approved dosing algorithm, the ordering physician must approve the change. The
nurse who administers the Epogen dose must document the time administered and how well the
patient tolerated the Epogen on the treatment sheet.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit reading for claims that
include administered Epogen. Before January 1, 2006, the hematocrit reading reported should be
the reading taken before the last dose of Epogen administered during the billing period.
Beginning January 1, 2006, the hematocrit reading reported should be the patient’s most recent
reading taken before the start of the billing period.

For 13 claims Bon Secours’ medical records reflected errors in documenting the ordering and
administration of Epogen for one or more dates of service for the months reviewed but not


6
PAranesp is a man-made form of human erythropoietin manufactured by Amgen, which stimulates the production of
    P




red blood cells.


                                                      6
discrepancies in the quantities of Epogen ordered, administered, billed, or paid. For 73 claims,
the hematocrit level included on the claim was incorrect.

Unsigned Medical Record Documents

For 11 claims, the ordering physician did not electronically sign a verbal order changing the
Epogen dose in accordance with Bon Secours guidance. The verbal order status in the Bon
Secours System was “open,” indicating that the ordering physician did not sign the order. The
nurse updated the Bon Secours System and administered the units of Epogen consistent with the
attending physicians’ verbal orders. Bon Secours billed and Medicare paid for the units of
Epogen ordered by the attending physician and administered to the patients.

Missing Treatment Sheets

For two claims, the patients’ medical records did not include the patient treatment sheets for one
date of service for the month reviewed. Bon Secours billed and Medicare paid for the units of
Epogen ordered by attending physicians and administered to the patients.

Claims with Incorrect Hematocrit Levels

For 73 claims, Bon Secours’ billing records reflected a hematocrit level that was different than
the hematocrit level reflected in the patients’ medical records.

      For calendar years 2004 and 2005, the provider should have reported the last hematocrit
       level during the billing period. The hematocrit levels submitted on 53 claims were not
       correct.

      For calendar year 2006, the provider should have reported the last hematocrit level before
       the start of the billing period. The hematocrit levels submitted on 20 claims were not
       correct.

Although the hematocrit levels for the 73 claims were not correct; the amount Medicare paid for
those claims did not result in overpayments.

BON SECOURS PROCEDURES NOT FOLLOWED

Although Bon Secours had controls in place, based on our review, Bon Secours personnel did
not always follow all of those procedures. An attending physician’s order decreasing the dose of
Epogen was not followed resulting in a patient receiving a larger Epogen dose than ordered for
several treatments. Physicians did not electronically sign some Epogen dose changes in the Bon
Secours System. Also, Bon Secours did not correctly bill for units of Epogen administered and
hematocrit levels submitted on claims for Medicare payment were not always accurate.




                                                7
RECOMMENDATIONS

We recommend that Bon Secours:

      refund the $89 in overpayments and

      ensure that it follows policies and procedures that are consistent with Federal
       requirements in order to avoid discrepancies between the units of Epogen ordered by
       patients’ physicians and the units administered to the patient, billed by Bon Secours, and
       paid by Medicare.

BON SECOURS COMMENTS

In written comments on our draft report, Bon Secours concurred with our recommendations.
Bon Secours stated that it will contact the fiscal intermediary about refunding the $89 in
overpayments and that its monthly chart audits will ensure compliance with its policies and
procedures. Bon Secours’ comments are included in the appendix.




                                                8
APPENDIX
               APPENDIX: BON SECOURS COMMENTS

                                         BON SECOURS BALTIMORE HEALTH SYSTEM
                                         2000 West Baltimore Street
                                         Baltimore, Maryland 21223

September 7, 2009

Report Number: A-03-07-00031

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Dear Mr. Virbitsky:

In response to report number noted above, “Payments for Epogen Administered at
Bon Secours Baltimore Hospital Renal Dialysis Center, Baltimore, Maryland”,
attached please find our written comments. In summary, we concur with your
recommendations, see enclosed for detail.

If you have any questions about this response, please do not hesitate to call or e-
mail me at (410) 362-3396 (judy_thomas@bshsi.org), or contact Richard Jones,
Chief Financial Officer, at (410) 362-4477 (Richard_jones@bshsi.org).

Sincerely,



/Judy A. Thomas/
Executive Director of Renal Services

Enclosure
Report Number: A-03-07-00031

Response to Recommendations

     Concur: Working with fiscal intermediary to refund $89.

     Concur: Policy and Procedure stipulate medication orders be entered into
      the patient’s electronic record within 24 hours. The orders are then
      electronically printed on the patients treatment record; thus, ensuring proper
      dose administration. The nurse indicates and signs off on medications
      given, which in turn is used for billing procedures. Monthly chart audits
      ensure compliance with said policies.
